HHS/OIG-Audit--"Audit of Costs Charged to the Chronic Fatigue Syndrome Program at the Centers for Disease Control and Prevention, (A-04-98-04226)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Costs Charged to the Chronic Fatigue Syndrome Program at the Centers for Disease Control and Prevention," (A-04-98-04226)
May 10, 1999
Complete
Text of Report is available in PDF format (1.64 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that of the $22.7 million charged to the Chronic Fatigue Syndrome (CFS) program during Fiscal
Years 1995 through 1998, only about $9.8 million (43 percent) was actually spent on CFS program activities. The remaining
$12.9 million (57 percent) was spent on non CFS activities ($8.8 million) or was not documented in sufficient detail for
us to discern its applicability to the CFS program ($4.1 million). These questionable charges occurred because of deficiencies
in the Center for Disease Control and Prevention's (CDC) internal control system regarding the handling of direct and indirect
costs. As a result of this matter, CDC officials have provided inaccurate information to the Congress regarding the use
of CFS funds, and have not supported the CFS program to the extent recommended and encouraged by the Congress. Officials
of the CDC generally concurred with steps we recommended they take to assure funds are used for their intended purposes.